Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


 RECOVERY ACT COSTS CLAIMED
   BY SOUTHEAST LANCASTER
    HEALTH SERVICES, INC.,
 WERE GENERALLY ALLOWABLE




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Stephen Virbitsky
                                               Regional Inspector General

                                                      February 2013
                                                      A-03-12-00350
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act (PHS Act), codified at
42 U.S.C. § 254b. The Health Center Program provides comprehensive primary health care
services to medically underserved populations. Within the U.S. Department of Health and
Human Services, the Health Resources and Services Administration (HRSA) administers the
Health Center Program. The Health Center Program provides grants to nonprofit private or
public entities that serve designated medically underserved populations and areas, and vulnerable
populations composed of migrant and seasonal farm workers, homeless individuals, and
residents of public housing.
American Recovery and Reinvestment Act Grants

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, which included $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Increased Demand for Services (IDS) grants,
Capital Improvement Program (CIP) grants, and Facilities Investment Program (FIP) grants.
HRSA provided grants to new and existing health centers; some health centers received more
than one type of grant.

SouthEast Lancaster Health Services, Inc.
SouthEast Lancaster Health Services, Inc. (SouthEast), is a not-for-profit corporation founded in
1972 to provide medical and dental care and patient health education to members of the local
community. SouthEast provides these services at three separate facilities in Lancaster,
Pennsylvania. HRSA awarded SouthEast three Recovery Act grants totaling $4,217,378: a FIP
grant of $3,250,000, a CIP grant of $723,690, and an IDS grant of $243,688.

Objective

Our objective was to determine whether costs claimed by SouthEast were allowable under the
terms of the grants and applicable Federal regulations.

SUMMARY OF FINDINGS

Of the $4,217,378 that SouthEast claimed, $3,974,522 was allowable under the terms of the
grants and applicable Federal regulations. We could not determine the allowability of $237,897
for salaries and fringe benefits. However, SouthEast claimed unallowable costs of $4,959 related
to the purchase of equipment. In addition, SouthEast did not always make timely payments to


                                                i
vendors, and it reported some drawdowns and disbursements incorrectly. SouthEast made these
errors because it had weaknesses in its internal controls.

RECOMMENDATIONS

We recommend that HRSA:

   •   either require that SouthEast refund to the Federal Government $237,897 related to the
       IDS grant or work with SouthEast to determine whether any of the $237,897 was
       allowable;

   •   require that SouthEast refund $4,959 to the Federal Government ($3,473 related to the
       FIP grant and $1,486 related to the CIP grant);

   •   require that SouthEast take corrective action to ensure that it maintains activity reports
       that reflect an after-the-fact certification of actual activity for employees who worked on
       all Federal awards; and

   •   require that SouthEast establish procedures for determining the allowability of equipment
       costs, for disbursing funds on a timely basis, and for accurately reporting drawdowns and
       disbursements of Federal funds on its Financial Reports.

SOUTHEAST LANCASTER HEALTH SERVICES, INC., COMMENTS

In its comments on our draft report, Southeast said it did not concur with our finding that
$237,897 in salary and fringe benefit costs charged to the IDS grant was potentially unallowable;
however, SouthEast did agree that its documentation could have been clearer. SouthEast
concurred with the recommendation to refund unallowable equipment costs and described its
new policies and procedures for maintaining after-the fact certification of personnel activity and
determining allowability of equipment costs under the grants.

OFFICE OF INSPECTOR GENERAL RESPONSE
Personnel activity reports are required to document after-the-fact determination of the actual
activity for employees whose salary and fringe benefit costs were charged to the IDS grant.
Without such reports, the allowability of salary and fringe benefits could not be determined.
Therefore, we maintain the validity of our finding.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS
In written comments on our draft report, HRSA concurred with our recommendations.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION.................................................................................................................1

       BACKGROUND ...........................................................................................................1
          The Health Center Program ..................................................................................1
          American Recovery and Reinvestment Act Grants ..............................................1
          SouthEast Lancaster Health Services, Inc. ...........................................................1

       OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................1
           Objective ...............................................................................................................1
           Scope .....................................................................................................................2
           Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATIONS .......................................................................3

       POTENTIALLY UNALLOWABLE COSTS AND UNALLOWABLE COSTS ........3
           Potentially Unallowable Salaries and Wages .......................................................3
           Unallowable Costs for Equipment ........................................................................3

       FINANCIAL MANAGEMENT SYSTEM WEAKNESSES ........................................4
           Cash Management Weaknesses ............................................................................4
           Financial Reporting Weaknesses ..........................................................................4
           Weaknesses in Financial Policies and Procedures ................................................5

       RECOMMENDATIONS ..............................................................................................5

       SOUTHEAST LANCASTER HEATH SERVICES, INC., COMMENTS ...................6

       OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................6

       HEALTH RESOURCES AND SERVICES
         ADMINISTRATION COMMENTS ........................................................................6

APPENDIXES

       A: SOUTHEAST LANCASTER HEALTH SERVICES, INC., COMMENTS

       B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                     iii
                                      INTRODUCTION

BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act (PHS Act), codified at
42 U.S.C. § 254b. The Health Center Program provides comprehensive primary health care
services to medically underserved populations. Within the U.S. Department of Health and
Human Services (HHS), the Health Resources and Services Administration (HRSA) administers
the program.
The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, and vulnerable populations composed
of migrant and seasonal farm workers, homeless individuals, and residents of public housing.

American Recovery and Reinvestment Act Grants

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, which included $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Increased Demand for Services (IDS) grants,
Capital Improvement Program (CIP) grants, and Facilities Investment Program (FIP) grants.
HRSA provided grants to new and existing health centers; some health centers received more
than one type of grant.

SouthEast Lancaster Health Services, Inc.

SouthEast Lancaster Health Services, Inc. (SouthEast), is a not-for-profit corporation founded in
1972 to provide medical and dental care and patient health education to members of the local
community. SouthEast provides these services at three separate facilities in Lancaster,
Pennsylvania.

HRSA awarded SouthEast three Recovery Act grants totaling $4,217,378: a FIP grant of
$3,250,000, a CIP grant of $723,690, and an IDS grant of $243,688. By September 30, 2011,
SouthEast had claimed all of the funds available under the grants.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether costs claimed by SouthEast were allowable under the
terms of the grants and applicable Federal regulations.




                                                1
Scope

We reviewed costs totaling $4,217,378 that SouthEast claimed from April 1, 2009, through
September 30, 2011. We did not perform an overall assessment of SouthEast’s internal control
structure. Rather, we reviewed only the internal controls that pertained to our objective.

We performed our fieldwork at SouthEast’s administrative offices in Lancaster, Pennsylvania,
during October 2011 and February 2012.

Methodology

To accomplish our objective, we:

    •   reviewed relevant Federal laws, regulations, and guidance;

    •   reviewed grant announcements, grant applications, and notices of grant awards;

    •   reviewed SouthEast’s audited financial statements and management letters for fiscal
        years 2009 through 2011;

    •   interviewed SouthEast management to gain an understanding of its accounting systems,
        procurement process, and related internal controls;

    •   reviewed SouthEast’s Finance Department’s policies and procedures;

    •   compared total expenditures to funds drawn from Recovery Act grants;

    •   reviewed all claimed costs (163 transactions totaling $4,217,378) for allowability;

    •   traced all costs to the supporting source documents, such as vendor invoices, cancelled
        checks, and employee pay records;

    •   reviewed personnel authorization, payroll, and time and attendance records; and

    •   reconciled all submitted Financial Reports 1 to actual amounts of drawdowns and
        disbursements recorded in SouthEast’s general ledger.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


1
  For the period April 2009 through September 2009, SouthEast reported grant-related financial data on the Federal
Cash Transactions Report. Beginning with Federal Fiscal Year 2010, HRSA required grantees to report grant-
related financial data on the Federal Financial Report instead. We refer to these reports generally as Financial
Reports.



                                                         2
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                FINDINGS AND RECOMMENDATIONS

Of the $4,217,378 that SouthEast claimed, $3,974,522 was allowable under the terms of the
grants and applicable Federal regulations. We could not determine the allowability of $237,897
for salaries and fringe benefits. However, SouthEast claimed unallowable costs of $4,959 related
to the purchase of equipment. In addition, SouthEast did not always make timely payments to
vendors, and it reported some drawdowns and disbursements incorrectly. SouthEast made these
errors because it had weaknesses in its internal controls.

POTENTIALLY UNALLOWABLE COSTS AND UNALLOWABLE COSTS

Potentially Unallowable Salaries and Wages

Federal cost principles require that the distribution of salaries and wages must be supported by
personnel activity reports (2 CFR part 230, Appendix B, § 8.m (2)). 2 The activity reports
maintained by nonprofit organizations must: (a) reflect an after-the-fact distribution of the actual
activity of each employee; (b) account for the total activity for which each employee is
compensated; (c) be signed by the employee or by a responsible supervisory official having
firsthand knowledge of the activities performed; and (d) be prepared at least monthly and
coincide with one or more pay periods.

We could not determine the allowability of $237,897 in salary and fringe benefit costs charged to
the IDS grant because SouthEast did not adequately document these costs. Specifically,
SouthEast did not maintain personnel activity reports to document after-the-fact determination of
the actual activity for employees whose salary and fringe benefit costs were charged to the grant.
Southeast’s payroll records showed hours and compensation and the employees’ biweekly
timesheets showed their times of arrival and departure, the total daily hours worked, and
approval by a supervisor. However, the timesheets did not reflect after-the-fact distribution of
the actual activity because they showed neither the grant(s) on which an employee worked nor
the activities performed. SouthEast officials stated that they were unaware of the requirement to
maintain after-the-fact activity certifications for employees who worked on Federal awards.

Unallowable Costs for Equipment

Federal cost principles allow taxes as a claimed cost except when exemptions are available to the
organization (2 CFR part 230, Appendix B, § 47(a)). The HHS Grants Policy Statement, Part II-
29, requires that credits to direct charges made to HHS grants must be treated as an adjustment
on expenditure reports. Also, the cost principles state that, to be allowable under an award, costs
must be reasonable for the performance of the award (2 CFR part 230, Appendix A, § A (2)).




2
    OMB Circular A-122, Cost Principles for Non-Profit Organizations, was relocated to 2 CFR part 230.


                                                         3
SouthEast claimed unallowable costs totaling $4,959 relating to the purchase of equipment as
follows:

    •   SouthEast claimed Pennsylvania sales tax totaling $2,391: $1,486 on the CIP grant and
        $905 on the FIP grant. However, SouthEast had a Pennsylvania sales tax exemption and
        therefore should have claimed no sales tax.

    •   SouthEast claimed $15,000 that it paid for dental equipment under its FIP grant. Because
        the vendor issued a credit for $2,145, the dental equipment cost only $12,855. However,
        SouthEast did not report the $2,145 credit as an adjustment on its FIP grant expenditure
        reports.

    •   SouthEast claimed duplicate costs of $423 on the FIP grant for a vendor invoice for
        projection equipment.

SouthEast claimed these unallowable costs because its written procedures did not include
specific controls for determining allowability of certain costs in accordance with the provisions
of the applicable Federal cost principles and the terms and conditions of the award (45 CFR
§ 74.21(b)(6)).

FINANCIAL MANAGEMENT SYSTEM WEAKNESSES

Cash Management Weaknesses

Federal administrative requirements call for the timing and amount of drawdowns to be as close
as is administratively feasible to the actual disbursement (2 CFR § 215.22(b)(2)). 3

SouthEast did not time payments to its vendors as close as administratively feasible to
drawdowns from its grants. SouthEast allowed 10 to 68 days to elapse between drawing down
the funds and paying the vendor for costs totaling $327,988. For example, SouthEast drew down
funds for a contractor’s invoice totaling $168,940 but waited 49 days to make the payment.

SouthEast did not have procedures to minimize the time elapsed between drawdowns and
disbursements as required. SouthEast officials acknowledged experiencing cash shortage issues,
which contributed to noncompliance with Federal regulations for the timing of drawdowns and
disbursements.

Financial Reporting Weaknesses

Federal standards for financial management systems require grantees to maintain financial
management systems that provide for accurate and complete reporting of grant-related financial
data (45 CFR § 74.21(b)(1)). The Financial Report instructions require recipients to report the


3
 OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements with Institutions of
Higher Education, Hospitals, and Other Non-Profit Organizations was relocated to 2 CFR part 215.



                                                      4
amount of actual cash received from the Federal agency (drawdowns) and the amount of Federal
funds disbursed as of the period end date. 4 The difference is considered cash on hand.

When completing the Financial Reports, SouthEast consistently reported the disbursements for
the period as equal to the drawdowns. It should have reported the actual disbursements and
reported the difference in the Cash on Hand field. For example, SouthEast should have reported
cumulative disbursements of $1,366,779 on the Financial Report for the quarter ending June 30,
2010. Instead, SouthEast reported disbursements of $1,391,036, which was the amount of its
drawdowns. The $24,257 difference between the drawdowns and the actual disbursements
should have been reported in the Cash on Hand field.

In addition, when reporting disbursements for the quarter ending September 30, 2010, SouthEast
attributed $254,784 of FIP disbursements to the CIP grant in error. SouthEast staff said that the
$254,784 error could have been prevented with a secondary review, but SouthEast lacked a
procedure for performing this check.

SouthEast made these disbursement reporting errors because it did not follow the Financial
Report instructions and did not have policies and procedures to ensure accurate and complete
reporting of grant-related financial data.

Weaknesses in Financial Policies and Procedures

Federal standards for financial management systems require grantees to maintain financial
management systems that provide for written policies and procedures for determining
allowability of costs in accordance with Federal regulations and terms and conditions of the
Federal award, for minimizing the time between drawdown and disbursement of Federal funds,
and for accurately reporting grant-related financial data (45 CFR § 74.21).
SouthEast did not have financial policies and procedures in place that addressed the need to
determine the allowability of some costs, minimize the time between drawdown and
disbursement of Federal funds, and report grant-related financial data accurately.
RECOMMENDATIONS

We recommend that HRSA:

    •    either require that SouthEast refund to the Federal Government $237,897 related to the
         IDS grant or work with SouthEast to determine whether any of the $237,897 was
         allowable;

    •    require that SouthEast refund $4,959 to the Federal Government ($3,473 related to the
         FIP grant and $1,486 related to the CIP grant);


4
  Federal Financial Report Instructions, accessed on August 30, 2012 at
(http://www.whitehouse.gov/sites/default/files/omb/grants/standard_forms/ffr_instructions.pdf) and the instructions
for the Federal Cash Transaction Report (included as part of the report form) had substantially similar requirements.



                                                          5
   •   require that SouthEast take corrective action to ensure that it maintains activity reports
       that reflect an after-the-fact certification of actual activity for employees who worked on
       all Federal awards; and

   •   require that SouthEast establish procedures for determining the allowability of equipment
       costs, for disbursing funds on a timely basis, and for accurately reporting drawdowns and
       disbursements of Federal funds on its Financial Reports.

SOUTHEAST LANCASTER HEALTH SERVICES, INC., COMMENTS

In its comments on our draft report, SouthEast said it did not concur with our finding that
$237,897 in salary and fringe benefit costs charged to the IDS grant was potentially unallowable;
however, SouthEast did agree that its documentation could have been clearer. SouthEast
concurred with the recommendation to refund unallowable equipment costs and described its
new policies and procedures for maintaining after-the fact certification of personnel activity and
determining allowability of equipment costs under the grants.
SouthEast’s comments and enclosures are included as Appendix A. We redacted portions of
SouthEast’s enclosure titled “Summary of Grant Expenses” because it contained personally
identifiable information.

OFFICE OF INSPECTOR GENERAL RESPONSE
Personnel activity reports are required to document after-the-fact determination of the actual
activity for employees whose salary and fringe benefit costs were charged to the IDS grant.
Without such reports, the allowability of salary and fringe benefits could not be determined.
Therefore, we maintain the validity of our finding.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS
In written comments on our draft report, HRSA concurred with our recommendations.
HRSA’s comments are included in their entirety as Appendix B.




                                                6
APPENDIXES
                                                                                                      Page 1 of 6
    APPENDIX A: SOUTHEAST LANCASTER HEALTH SERVICES, INC., COMMENTS
     SouthEast
     Lancaster
     Health Services
            at Arch Street




October 3, 2012

Stephen Virbitsky
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, P A 191 06

Report Number: A-03-12-00350

Dear Mr. Virbitsky:

Thank you. for the opportunity to provide a written response to the findings and
recommendations as outlined in the Report referenced above.

We do not concur with the finding that SouthEast Lancaster Health Services (SELHS) Salary &
Wages of$237,897 are potentially unallowable. The IDS grant funds were used to hire new
dental staff to cover the increase ih capacity that resulted from our expansion from 6 to 13 dental
chairs, as approved in the grant award. We recognize that the documentation could.have been
more clear to meet the after-the-fact certification requirements in 2009. To strengthen our
records, SELHS has created and implemented a policy and procedure for after-the-fact salary
reporting by utilizing our electronic time keeping system to show specific salary and benefit
allocation to grants. Our new policy and procedures require records that a) reflect an after-the­
fact distribution of the actual activity of each employee; b) account for the total activity for
which each employee is compensated; c) are signed by the employee or a responsible supervisor
with firsthand knowledge of the activities performed; and d) are prepared at least monthly and
coincide with pay periods. 1 We agree to work with HRSA to further explore whether $237,8972
in Salary & Wages is allowable.

We concur with the recommendation for SELHS to refund $4,959 in unallowable equipment
costs as a result of payment of sales tax and improper allocation of an equipment credit. To avoid
these errors in the future, SELHS now has a Sales and Use Tax Exemption policl in place and
has adopted a new policy and procedures on accounting for Federal grant expenses 1 through the
use of project codes in our accounting system with proper reviews. We will work with HRSA to
determine appropriate payback terms.




            333 North Arch Street • Lancaster, PA 17603 • Phone. 717.299.6371 •   Fax 717.945.1584
                                            a united way agenc y
                                                                                                 Page 2 of 6

                                                                                                 2




We concur with the recommendation for SELHS to establish procedures for determining the
allowability of equipment costs, for disbursing funds on a timely basis, and for accurately
reporting drawdowns and disbursements of Federal funds on Financial Reports. SELHS has
adopted new policies and procedures to meet this recommendation and is committed to
accurately reporting and meeting Federal Financial Guidelines.!

We appreciate the opportunity to respond to the draft report and welcome continued
conversations with HRSA to finalize this review of allowable costs. Do not hesitate to contact
me with questions or for additional information.

Sincerely,




Hilda A. Shirk, Ph.D., M.S.W.
Chief Executive, Officer
SouthEast Lancaster Health Services

Enclosures
1 Policy for Federal Awards Financial Grant Reporting
2Surnmary of Grant Expenses
3 Policy for Sales and Use Tax Exemption
                                                                                                         Page 3 of 6


                                                                                                Page 1 of2
                      SELHS ADMINISTRATIVE POLICY/PROCEDURE

TITLE: Federal Grant Awa­ r ds ­ Financial Grant Re ortin
ORIGINATOR: Chief Financial Officer         SIGNATURE~    :"""""'~!:fd!:~~.:4
APPROVED BY: Senior Leadershi                                   DATE: 10/3/12


Policy: SELHS maintains procedures far determining the allawability af casts in accardance with
federal regulatians and terms and canditians of the Federal award, far minimizing the time between
drawdawn and disbursement afFederal funds, and far accurately reparting grant-related financial data
as required by (45 CFR 74.21).

Purpose: The purpase afthis palicy is to. 1) meet Federal grant financial reparting requirements and
         2) verify Federal grant-related data is accurate.

Procedures:

   1. 	 Salary and Wage Tracking/Reparting - Activity rep arts must reflect an after-the-fact
        distributian afthe actual activity afeach emplayee, accaunt for the tatal activity far which each
        emplayee is campensated, be signed by theemplayee or by a respansible supervisary afficial
        having firsthand knawledge af the activities perfarmed and be prepared at least manthly and
        caincide with ane ar more pay peri ads.

           a. 	 The CFO will give HRlPayrall the name af the Grant Award and staff/pasitians cavered
                under the grant.
           b. 	 Payrall will set up a separate Nan-Pay Cade in the electranic timekeeping system far
                each grant.
           c. 	 Payrall will natify the supervisar afthe grant emplayees and instruct them an haw to
                use the Nan-Pay Cade in the timekeeping system.
                     l. 	 Narmal Haurs are entered by the emplayee's swipe card and supervisar input an
                          a bi-weekly basis.
                    ll. 	 A sec and recard is created by the supervisar to. enter the bi-weekly haurs related
                          to. the Grant using the established Nan-Pay Cade.
           d. 	 Payrall will run a Time & Attendance Detail Report far each emplayee cavered by the
                grant an a monthly basis and give to. the Praject Manager afthe specific grant to. review
                to enSure grant requirements are being met.
                     1. 	 The Time & Attendance Detail Repart includes the name af each emplayee as
                          well as the Supervisor who appraves the time on a bi-weekly basis.

   2. 	 Allowability of Grant Costs - All grant related expenditures including equipment need to' be
        reviewed and approved to determine if they are allawable under the specific grant conditians.

           a. 	 The CFO will notify the Cantraller af each new Federal Grant. The Cantroller will
                create a Project ID cade in the accounting system far the specific grant and natify the
                Accountant and Project Manager of the grant.
           b. 	 The Project Manager af the grant will review and approve all invaices/purchases made
                under the grant.
                                                                                                    Page 4 of 6


                                                                                            Page 2 of2
                       SELHS ADMINISTRATIVE POLICYIPROCEDURE

TITLE: Federal Grant Awards - Financial Grant Re[}ortinf!    I         f

ORIGINATOR: Chief Financial Officer      SIGNATURE:'-'y"/L / /.~
APPROVED BY: Senior Leadershio                            ' DATE: 10/3/12


                  L	     The Project Manager will sign, date and note the Prbject ID code on the invoice
                         for each expenditure and give to the Accountant for processing.
          c. 	 The Accountant will enter the invoice into the accounting system using the Project ID
               code along with the normal General Ledger codes and process payment.
                    i. 	 The approved and processed invoices will be filed in the Finance Department.
                   ii. 	 The Accountant will review all credits/refunds received to identify if grant
                         related and process appropriately.
          d. 	 The Controller will provide a Monthly Income Statement Report for the Project ID code
               to the Project Manager to review to make sure grant requirements are being met.

   3. 	 Timing and Amount of drawdowns - The Federal requirement calls for the timing and amount
        of drawdowns to be as close as is administratively feasible to the actual disbursement.
            a. 	 The Controller will drawdown funds on a monthly basis after expenses have occurred
                 when cash flow allows for payment before grant drawdown.
                      i. 	 Review Project ID code cost report from accounting system to determine
                           drawdown amount.
            b. 	 Drawdowns before expense payments - The Finance Department will process grant
                 expense disbursements within 5 business days of grant drawdown when payment prior
                 to grant drawdown is not possible.

   4. 	 Federal Financial Reporting (FFR) - The reporting of drawdowns and disbursements through
        the FFR is required to be completed as deemed by the Department of Health Resources
        Services Administration (HRSA), which need to be filed accurately and timely.
            a. The Controller will utilize the monthly Income Statement that had been created for the
               grant and crosswalk with other supporting documentation, as well as the PSC 272, to
               determine-the accuracy of the drawdowns that have taken place within the reporting
               period.
            b. The Controller will utilize the mOhthly Income Statement that had been created for the
               grant and crosswalk with other supporting documentation to determine the accuracy of
               the disbursements that have taken place within the reporting period.
            c. The drawdowns and the disbursements will be reported on the FFR with any difference
               reported as Cash on Hand. The FFR will be electronically submitted to HRSA. Copies
               of the FFR, along with supporting documentation, will be kept on file in the Finance
               Departme_nt.
                                                                                                                                                                                                                                Page 5 of 6


                                                                                                     SouthEast l ancaster Health Services 

                                                                                                        Dental ElI7pansion - $243,688. 


                          Draw on          Draw on          Draw o n           Orawon            Draw on           Draw on            Draw on         Draw on         Draw po        Draw on                     Total F'i'E
                          6/23/2009          7( 2( 2009      7(14( 2009         8/12/2009           9(9(2009        10(7/2009          11(3( 2009        1( 5( 2010     1(26/2 010     3/1/2010                  03 / 2010

                            $,791.30         3,316.00           9,088.00          9,360.00           5,361.38          6,614.00          9,379.00       10,876.00        6,553.00      6,401.00                    72,739·68

                                             3,316.00           2,576.00          2,760;00           1,641.98          2,03400           3,925.00        3,698 .00       2,199.00      2,183.00                    24,332.98
                                                                1,.6 00.00        2.400.00           1,423.50          1,767.00          3,195.00        2,940.00        1,569.00      1,520.00                    16,'<14.50
                                                                3,520.00          2,640.00           1,402.34          1,711.00            696.00                                                                   9,969.34
                                                                                                                                                         2,759.00        1,693.00      1,631.OQ                     6,083.00
Beneffts                                                        1,392.00          1.560.00            893.56           1,102.00          1,563.00        1,479.00        1,092.00      1,067.00                    10,148.56
S..'pplies -                  998.86                                                                                                                                                                                  998.86
Supplies -                    781.50                                                                                                                                                                                  781.50
Supplies.-                  1,371.02                                                                                                                                                                                1,371.02
Equipment - Tab             2,639.92                                                                                                                                                                                2,639.92
                            5,791.30         3,316.00           9,088.00          9,360.00          5,361.38           6,614.00          9,379.00       10,876.00        6,553.00      6,401.00                    72,739.68
General Ledger 10 Code:           87               88                 89                90                  91               92                93                               5           96


                          Draw on         Draw on           Draw on            Draw on           Draw on           Draw all           DraW-on         Dr aw on        Draw on        Draw on      Draw·on        Total FYE
                           4/1/2010         4(5(2010         5/17/Z010          5/19/2010         6(2 9(Z010        8/25/2010          9/16/2010       10[26[2010      12[10[2010      2£8£2011    3/10/2011     03/2011

                            6,628.00        6,628.00            6,311.00        17,100.00          14,738.88         19,333.00          10,716.00       20,773.00       19,168.01    32,392.08     17,160.35     170,9 48.32
                                          Estimate                                                3 Pays            4 pays             2 Pays         3 Pa ys         3 Pays         5 payS       3 pays
                            2,262.13        2,262.13            1,680.97                            3,292.87          4,348.99           2,054.16        3,225.77        3,138.01      5,472A3      3,355.03      31,092.49
                            1,563.50        1,563.50            1,595.95                                                                 5,903.00        1,811.95        2,174.30      3,917.50     2,440.85      20,970.55
                                                                                17,100.00           4,050.00          5,251.50           2,430.00        4,124.25        3,956.40      6,413.40     6,901.55      50,227. 10
                            1,697.92         1,697.92          2,20995                              2,447.11          3,215.37           1,480.0 6       2,209.17        2,399.63      4,318.03     1,602.86      23,278.02
                                                                                                                                                         9,180.08        4,305.DO      6,872.04                   20,357.12
                                                                                                    2,492.42          3,294.59          (5,787.01 )
Estimate Correction                                              (272.94)                                                                3,420.00       (3,240.00)                                                   (92.94)
eenefits                    1,104.45         1, 104.45          1,097.07                            2,456.48          3,222.55           1,215.79        3,462.24        3,194.67      5,398.68     2,860.06      25,116.44
                            6,628.00         6,628.00          6,3 11 .00       17, 100.00         14,138.88         19,333.00          10,716..00      20,773.00      19,168.0 1    32,392.08     17,160.35     170,948.32
General ledger ID Code:            91               98                 99              100               101               102                 10             104            105            1              107



                          Hire Date       PosItion
                           4/27/2009 Den t al A.ssista nt - Ne w Hire for expanded ~.pac i ty - IDS Grant            55,425.47
                           6/10/2009 Denta l Receptionist - NeW Hire for expanded ~apacity -IDS Grant                37,385,05
                             5/ 4/2009 Den t a: Assistant - New Hire for expand ed Capacity - IDS Grant               9,969.34
                             9/5/2008 Denti,st - increased hours for expanded Capacity·.oS Grant                     50,227.10
                          11/16/2009 Dental Assistant - New Hire f or expanded Capacity -IDS Gr.nt                   29,361.02
                           7/14/2010 Dent.1 Hygienist - New Hire for expanded C.pacity-IDS grant                     20,357.12
Est imate Correction                                                                                                    (92.94)
Beoefits                                                                                                             35,265.00
                                                                                                                                      237,897.16
Supplies -                                                                                                            3, 151 .38
Eq uipment - Tab                                                                                                      2,639.92
                                                                                                                                         5,791.30

Total                                                                                                                                 243,688.46
                                                                                        Page 6 of 6


                                                                                             Page 1 of 1
                       SELHS ADMINISTRATIVE POLICYIPROCEDURE
                                                                                                            1--


                                                                  ~d/
TITLE: Sales and Use Tax Exemption 

ORIGINATOR: Chief Financial Officer                 SIGNATURE :~

APPROVED BY: Senior Leadership 	                                       ATE: 10/3/12


POLICY: SouthEast Health holds a Pennsylvania Sales and Use Tax exemption as a Charitable
Organization 501 (c)(3) and is not required to pay sales and use taxes with certain exceptions. All
purchases made on behalf of the health center must be made using our tax exempt certificate
regardless of the method of payment or funds used. It is the responsibility of the individual initiating
the purchase to alert the vendor to our tax exempt status. Contact the Accountant to request a copy         ..
of the tax exemption certificate to provide to the vendor.


DETAILS:
1. 	 Our sales and use tax exemption applies to purchases made regardless of funding source. These
     funds include federal, state, local, patient revenues, grants, and contributions . The tax exemption
     applies regardless of the method of payment whether by check, charge card or electronic
     payment.
2. 	 Purchases made for the health center by an employee with personal funds, petty cash, who is later
     reimbursed by the health center, are also exempt from sales tax. To avoid paying sales tax, it is the
     employee's responsibility to present a tax exemption certificate upon making a purchase. Contact the
     Accountant to request a copy of the tax exemption certificate.

3. 	 In the event that sales tax has been included on exempt purchases, the Accountant will contact the
     vendor informing them of SouthEast Health's tax exemption status, and provide to them the Pennsylvania
     Sales and Use Tax Certificate. At that time the Accountant will either request a new invoice, which
     should not include Pennsylvania Sales Tax, or remove the Sales Tax portion of th,e invoice and process
     as is.

4. 	 Not all purchases made by SouthEast Health as a Charitable Organization 501 (c)(3) are exempt from
     Pennsylvania Sales and Use Tax. These exceptions are as follows :

           Property for the 'use of construction, improvement, repair or maintenance or any real property

           Property used for unrelated activities

           Property used for unrelated operation of a public trade or business

           Equipment used to maintain real property
                                                                             Page 1 of 3
               APPENDIX B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS
 /----~
(,,::::t'f..   DEPARTMENT OF HEALTH&. HUMAN SERVICES                                Health Resources and Services
                                                                                    Administration

                                                                                    Rockville, MD 20857


                                                            ·c;
                                                             '.j




               TO:          Inspector General

               FROM:        Administrator

               SUBJECT:     OIG Draft Report: "SouthEast Lancaster Health Services, Inc., Costs
                            Claimed Against Recovery Act Grants Were Generally Allowable"
                            (A-03-12-00350)

               Attached is the Health Resources and Services Administration's (HRSA) response to
               the OIG's draft report, "SouthEast Lancaster Health Services, Inc., Costs Claimed
               Against Recovery Act Grants Were Generally Allowable" (A-03-12-00350). If you have
               any questions, please contact Sandy Seaton in HRSA's Office of Federal Assistance
               Management at (301) 443-2432.


                                                      ~7#~                                            

                                                         Mary K. Wakefield, Ph.D., R.N.

               Attachment
                                                                                                          Page 2 of 3




  Health Resources and Services Administration's Comments on the OIG Draft Report ­
 "SouthEast Lancaster Health Services, Inc., Costs Claimed Against Recovery Act Grants
                      Were Generally Allowable" (A-03-12-00350)

The Health Resources and Services Administration (HRSA) appreciates the opportunity to
respond to the above draft report. HRSA's response to the Office of Inspector General (OIG)
draft recommendations are as follows:

OIG Recommendation to HRSA:

We recommend that HRSA either require that SouthEast refund to the Federal Government
$237,897 related to the IDS grant or work with SouthEast to determine whether any of the
$237,897 was allowable.

HRSA Response:

HRSA concurs with the OIG recommendation and will work with the grantee to determine
whether any of the $237,897 costs associated with the IDS grant are allowable.

OIG Recommendation to HRSA:

We recommend that HRSA require that SouthEast refund $4,959 to the Federal Government
($3,473 related to the FIP grant and $1,486 related to the CIP grant).

HRSA Response:

We concur with the OIG recommendation and will recover from SouthEast the $4,959 in
unallowable costs related to the purchase of equipment under the FIP and CIP grants.

OIG Recommendation to HRSA:

We recommend that HRSA require that SouthEast take corrective action to ensure that it
maintains activity reports that reflect an after-the-fact certification of actual activity for
employees who worked on all Federal awards.

HRSA Response:

We concur with the OIG recommendation and will assist SouthEast in establishing policies to
maintain activity reports that appropriately reflect an after-the-fact certification of actual activity
for employees who worked on all federal awards.
                                                                                                    Page 3 of 3




OIG Recommendation to HRSA:

We recommend that HRSA require that SouthEast establish procedures for determining the
allowability of equipment costs, for disbursing funds on a timely basis, and for accurately
reporting drawdowns and disbursements of Federal funds on its Financial Reports.

HRSA Response:

We concur with the DIG recommendation and will assist the grantee in determining the
allowability of equipment costs, for disbursing funds on a timely basis, and to accurately report
drawdowns and disbursements of federal funds.
